<html>
<title> - U.S. DEPARTMENT OF STATE COUNTERTERRORISM BUREAU: THE FY 2018 BUDGET</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  U.S. DEPARTMENT OF STATE COUNTERTERRORISM BUREAU: THE FY 2018 BUDGET

=======================================================================

                                 HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 7, 2017

                               __________

                           Serial No. 115-87

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-759 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe8ffe0cfecfafcfbe7eae3ffa1ece0e2a1">[email&#160;protected]</a> 
                                             
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Nathan Alexander Sales, Coordinator for 
  Counterterrorism, Bureau of Counterterrorism and Countering 
  Violent Extremism, U.S. Department of State....................     3

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Nathan Alexander Sales: Prepared statement.........     5

                                APPENDIX

Hearing notice...................................................    24
Hearing minutes..................................................    25
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Prepared statement................    26
The Honorable Dina Titus, a Representative in Congress from the 
  State of Nevada: Questions submitted for the record............    28

 
                        U.S. DEPARTMENT OF STATE
                        COUNTERTERRORISM BUREAU:
                           THE FY 2018 BUDGET

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2017

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Paul Cook 
presiding.
    Mr. Cook [presiding]. The subcommittee will come to order. 
Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the length limitation in the rules.
    This hearing right now--I had the pleasure of meeting with 
our guest and talking about some of the issues beforehand. This 
is an area that is extremely important in light of what is 
going on in the world. And counterterrorism is something that 
has a lot of different opinions, solutions, and what have you, 
but this is one which is not going to go away and I am 
delighted that we have our guest with us.
    And right now I don't see anyone else, and I am not going 
to chastise the ranking member for taking his time getting down 
here, but I know here is my very, very good friend, 
Representative Keating, from the great state of Massachusetts. 
So I was just in your district where I spent some time with my 
family and it was absolutely great. So I am going to turn to 
the ranking member for 5 minutes for an opening comment.
    Mr. Keating. Well, thank you Mr. Chairman and thanks for 
coming and spending money in my district, and it is always a 
pleasure to team up with you as we have on many issues and will 
continue to do in the future. And for Chairman Poe and yourself 
and myself, this is an important hearing on a very important 
subject; so I would like to thank you and I would like to thank 
the chairman for holding this hearing.
    I would also like to thank Ambassador Sales for joining us 
today. And once again, I had the pleasure to do this the other 
day, extend my congratulations on your appointment to this 
position and I look forward to working with you on U.S. 
counterterrorism policy and how we can be more effective in 
addressing what is truly a global threat.
    Terrorist attacks, we have witnessed, take innocent lives 
and wreak havoc in communities not just domestically but around 
the world. And they underscore how critical the issue is for 
promoting greater security for us here at home and for our 
families around the world because of these great and 
challenging threats.
    It is widely understood that the fight against terrorism is 
not solely taking place on battlefields. Violent extremism 
incubates where individuals are denied access to justice and an 
opportunity to provide for their own families' basic needs. It 
spreads when we do not dismantle terrorist financing networks 
or when governments turn a blind eye to terrorism, even as it 
undermines their own legitimacy and ability to guarantee 
security for their own people.
    It grows when conflicts emerge, humanitarian crises unfold, 
or new governments struggle to establish the institutions that 
are necessary to bring their countries through what are often 
turbulent transitions. This is why the State Department is so 
critical to our security and combating terrorism. Terrorism is 
a global threat and requires coordination with our allies and 
partners throughout the entire world.
    We cannot shut down terrorist financing networks, support 
new democratic governments, stimulate investment and economic 
growth, track foreign fighters, and train law enforcement and 
counterterrorism units on securing our communities by 
ourselves. Yet these and so many other steps are necessary--and 
if we want to live in a world we do not have to wake up daily 
to new developments in the fight against terror, we will have 
to address these issues.
    And our diplomats, Foreign Service officers, and countless 
individuals serving their country at the State Department make 
our partnerships and cooperation with other countries possible. 
State Department funding provides the relief, training, and 
investment that is critical for generating the stability and 
security needed for eradicating the threat of terrorism.
    This funding comes with the expertise of the entire 
department of individuals who understand the local contexts and 
leaders and geopolitical issues to different conflicts and who 
are best positioned to make sure when the money is being spent 
to combat terrorism it is being spent in ways that further 
American security as well.
    That is why I was joined by so many of my colleagues in our 
disappointment with the President's State Department budget, 
cutting nearly a third of the Department's budget at a time 
when we face numerous complex security challenges throughout 
what is an increasingly more dangerous world.
    Today we are here to address the counterterrorism aspects 
of the budget request and I look forward to hearing from you on 
your priorities and plans for using critical human and funding 
resources available through the State Department and partner 
agencies across the U.S. Government. If we fail to really use 
diplomacy and strategic investments in promoting stability we 
will be mired in conflict and the threat of terrorism for 
decades to come.
    Thank you again, Ambassador Sales. I look forward to 
hearing your testimony and thank you for being here and taking 
the time to meet this week. I yield back.
    Mr. Cook. Thank you, Congressman Keating.
    Before I introduce our witness I just want to explain what 
is going on here. Right now we have got multiple hearings and 
there is one over at the House Committee and there is one in 
Judiciary which have a lot of attention going on, besides that 
votes and everything like that; so I want to apologize for the 
three-ring circus that you are part of. And sometimes you come 
in here it is very, very busy, sometimes you feel like the Lone 
Ranger--no pun intended. But I am personally delighted to have 
you here particularly after our conversation, and I am rest 
assured you are going to do a great job.
    So without objection, the witness' prepared statement will 
be made part of the record. I ask that the witness keep your 
presentation to no more than 5 minutes. Hopefully we are going 
to have other members that will join us here because this 
subject is so important.
    So right now I want to introduce the Ambassador, Ambassador 
Sales. He is the Coordinator for Counterterrorism at the State 
Department. Ambassador Sales was previously a law professor at 
Syracuse University of Law, and before that Deputy Assistant 
Secretary for Policy at the Department of Homeland Security. 
And he is from, as I said, Syracuse in the Northeast, where I 
had occasion to spend some time and I hope he has thawed out 
since those experience after leaving California.
    So, Ambassador Sales, once again, it is our honor to have 
you here, and please give your presentation. Thank you.

STATEMENT OF THE HONORABLE NATHAN ALEXANDER SALES, COORDINATOR 
FOR COUNTERTERRORISM, BUREAU OF COUNTERTERRORISM AND COUNTERING 
          VIOLENT EXTREMISM, U.S. DEPARTMENT OF STATE

    Ambassador Sales. Thank you very much. Thank you, Chairman 
Cook and Ranking Member Keating and members of the 
subcommittee. It is a wonderful opportunity to discuss----
    Mr. Cook. Excuse me. Do you have your microphone on or----
    Ambassador Sales. Yes, I do. Closer, point. Right.
    Chairman Cook, Ranking Member Keating, and distinguished 
members of the subcommittee, thank you for this opportunity to 
discuss the Counterterrorism Bureau's work and our efforts to 
keep America safe. I have been on the job about 3 weeks now, 
and I am grateful for the chance to speak with you so early in 
my tenure at the State Department.
    Since 9/11, the United States has been the world's 
counterterrorism leader. We have invested a great deal of blood 
and treasure in taking the fight to our enemies. CT will always 
remain a top American priority, and we emphatically state that 
we will not retreat from our global leadership role, but it is 
time for the rest of the world to step up too.
    Our friends and allies must share more of the burdens, 
financial and otherwise. We need them to make the same 
commitments that we have made to fight terrorism around the 
globe. Now sometimes that means military action, but it is just 
as important to confront terrorism with civilian tools.
    The administration's goal is to degrade the terrorism 
threat to a level where it can be addressed with civilian 
mechanisms like law enforcement, diplomatic engagement, and 
capacity building--measures where the CT Bureau has long played 
a central role. In our fiscal year 2018 request we have 
prioritized three programs: The Counterterrorism Partnership 
Fund, the Antiterrorism Assistance program, and the Terrorist 
Interdiction Program.
    Let me quickly run through a few of our most important 
diplomatic efforts and programmatic efforts. First, the 
protection of soft targets: Terrorists increasingly are 
attacking soft targets like hotels, resorts, and cultural 
sites. We have seen the trend in Barcelona, Berlin, London, 
Manchester, and Nice, and here at home as well in places like 
Orlando and San Bernardino.
    To counter this growing threat, CT has spent the past year 
working with our international partners through the Global 
Counterterrorism Forum to develop a set of international good 
practices on the protection of soft targets. We hope to 
finalize these recommendations and announce them publicly in 
the very near future.
    Second, information sharing: It is essential that we share 
counterterrorism information especially at international 
borders. Working with our international partners here at home, 
the State Department has concluded bilateral agreements under 
HSPD-6 for sharing information about known and suspected 
terrorists.
    Since 2007, 65 countries around the world representing all 
corners of the earth have signed HSPD-6 agreements. That 
includes all 38 members of the Visa Waiver Program. When fully 
implemented, these agreements will help us identify, track, and 
prevent the travel of those who would do us harm.
    Third, aviation security: ISIS, al-Qaeda, and other 
terrorist groups continue to prioritize attacks on commercial 
aviation. Look no further than last year's attack on Daallo 
Airlines or the recently thwarted plot in Australia. Along with 
DHS, the CT Bureau is working to elevate the baseline of global 
aviation security and ensure that our foreign partners can 
respond to these deadly threats.
    Fourth and finally, capacity building: The CT Bureau uses 
the foreign assistance funds that Congress appropriates to 
improve our partners' counterterrorism capabilities. We are 
helping them help themselves. In particular, we assist in 
building their ability to investigate, prosecute, and 
adjudicate terrorism-related cases. To investigate we provide 
training, equipment, and mentoring to law enforcement; to 
prosecute we teach lawyers how to prepare persuasive, well-
developed cases that will lead to convictions; and to 
adjudicate, we work with judges so they have a better 
understanding of the complexities and challenges of deciding 
terrorism cases. In my written testimony you will see examples 
where these efforts are yielding concrete and tangible results.
    Mr. Chairman, Mr. Ranking Member, the terrorist threat is 
constantly evolving and along with our friends and partners 
around the world, we too must evolve to meet that threat. We 
greatly appreciate Congress' support in this shared endeavor. I 
look forward to your questions and to our discussion. Thank 
you.
    [The prepared statement of Ambassador Sales follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Cook. Thank you very much, Mr. Ambassador. You are 
going to have quite a job on your hands, and this is one--I 
don't envy your situation. And I support the ranking member's 
concern about funding. I think this is something that we cannot 
ignore. If we don't fund some of your activities or what have 
you, all we are going to be doing is funding more as Secretary 
Mattis talked about, more guns, more money, you know--that is 
going to be the end result.
    So some of the programs that you are involved with, my 
question basically is how are you going to constantly 
reprioritize? And you know, this is like what day of the week 
is it, what has happened recently, and of course we are 
approaching the anniversary of 9/11 and it is like okay, what 
is the biggest terrorist threat that we are facing? And by the 
way as an aside, your comments about working with our allies 
and everybody on the same sheet of music in a common goal I 
think is laudatory--and very, very happy that you are saying 
it.
    So in regards to all the threats and I won't even list 
them, you know them better than I do, how are you constantly 
going to reevaluate on an almost daily, weekly basis? What is 
the greatest threat facing the United States and Americans?
    Ambassador Sales. It is an important question, Congressman, 
and an important challenge that we have to meet. The terrorist 
threat is, as you say, constantly changing, constantly 
evolving, constantly adapting. Our enemies are capable of 
learning from their mistakes. They are capable of learning from 
our successes. And a good example of this is the rise of what 
you might call self-directed terrorism.
    The al-Qaeda model of carrying out terrorist attacks is one 
where you have a centralized, hierarchical, command-and-control 
structure that issues orders to operatives to go out and carry 
out attacks. It provides them with training. It provides them 
with resources. It provides them with marching orders. What we 
have seen in recent years is, coexisting with that earlier 
model of terrorism, a model of terrorism in which individual 
terrorists are responsible for selecting targets on their own. 
They don't necessarily require detailed instructions or even 
any instructions from a centralized command structure. They are 
self-directed and capable of striking independently.
    And that rise of that model of terrorism is one that we 
have seen here in the United States, in San Bernardino and 
Orlando. We have seen it increasingly in Europe as well. And so 
the challenge is to adapt our capabilities to meet that threat. 
That has to be based on an analysis of the problem. It has to 
be informed by intelligence reporting about what our 
adversaries are doing and what their plans are and how they are 
adapting, and it has to inform as well by our diplomatic 
engagement with allies around the world to understand the 
problems that they are experiencing in their countries.
    Mr. Cook. Thank you for your answer. Before I turn it over 
to my colleague here, I just want to--I know you have been on 
the job 3 weeks, but I think the people on this committee are 
very, very interested in your activities. Don't be afraid to 
keep us in the loop. We have got a lot of things going on, but 
everything is so important and I think your efforts and your 
education can go a long way to produce allies in this battle 
that you have.
    So at this time I am going to turn it over to the ranking 
member, Congressman Keating.
    Mr. Keating. Thank you, Mr. Chairman. And not only as 
ranking member of this committee, I am also on the subcommittee 
on Homeland Security on counterterrorism as well as aviation 
safety; so the issues you spoke to are longstanding concerns of 
mine.
    One of the things as we traveled around looking at 
different airports through Europe and even in Africa, we were 
looking at resources that our country was offering to certain 
countries and we found in that trip that people, other 
countries were reluctant to even take advantage of our 
resources. But I think, given the string of terrorist attacks 
in Europe in particular, we have seen a change of mind. Are you 
seeing that change and receptiveness to our resources and our 
help?
    Ambassador Sales. I certainly am, Congressman. I think--you 
mentioned Europe in particular. I think Europe, leaders in 
Europe, are very well aware of the severity of the threat that 
they face. And I think atrocities like we have seen in 
Barcelona and London and Manchester, and the list goes on, have 
really galvanized leaders at the national level and at the EU 
level as well to work internally together within Europe and to 
work as part of our Transatlantic Alliance with the United 
States to counter this threat together.
    Mr. Keating. You know, one of the areas of concern was 
the--it was in Istanbul and the airport there. There is such a 
huge, you know, mecca of travel, and I think that you know 
there was a reluctance there, but there have been a lot of 
discussion about improvements in that regard. What have you 
seen in that area?
    Ambassador Sales. Turkey has made a number of important 
strides. As you know and as you just said that the Istanbul 
Airport has been an important transit point not just for 
tourists and business people, but also for foreign terrorist 
fighters who are seeking to enter the conflict zone in Syria 
and Iraq.
    I think when the ISIS scourge started sweeping across the 
Middle East for the first time in 2014, we saw 20,000-30,000 
foreign fighters traveling into the war zone through a number 
of routes, but including through our NATO ally Turkey. Since 
then, Turkey has begun to take a number of strong steps to gain 
better control of its border with Syria to stanch the flow of 
foreign fighters in. Turkey has also stepped up the sharing of 
information with other NATO allies to give a heads up about the 
possible movements of foreign terrorist fighters. We have still 
got some work to do, but I am encouraged by the direction 
things are heading.
    Mr. Keating. You know, we have had success with our 
coalition, military success on the ground with ISIS. However, 
ISIS is different. It is sort of like a franchise--it has been 
described before as opposed to an entity, because they deal in 
ideology and they will go anywhere and they will be receptive 
to activities throughout the whole world. And, you know, that 
is including not just the Middle East but areas, you know, 
Southeast Asia, Central Asia--you see it in the Philippines. We 
have even had discussions just recently about concerns with 
countries like Bangladesh where there is, you know, the 
incubation I talked about, all those characteristics are 
there--and how people that are firsthand in terms of their 
information have described changes that have occurred.
    So with that as a given it brings us back to the importance 
of USAID and other initiatives that we have, because if indeed 
they are this franchise that local people on the ground given 
fertile territory to exist and grow will take advantage of, if 
we are not countering that we are not going to be successful in 
stemming this because it is a moving target.
    And all those moving targets are over the world, but they 
could be a threat back here in the United States for all the 
reasons that you described in terms of air traffic and in terms 
of people using the social media to become inspired and they 
don't even have to be directed to act.
    So I will get back to the cuts that were there. I honestly 
feel although your reference to other partners stepping up to 
the plate, I think they are understanding the need of that more 
than they did even a few years ago. But for the taxpayer, the 
best bang for the dollar in dealing with terrorism is to deal 
with these issues because it is spread throughout the world. It 
has metastasized.
    So how do you get around that honestly? I know that we are 
talking about this in our committee. I don't think there has 
been a full committee hearing where we haven't right across the 
aisle spoke to this need as well as understand that even the 
filling of State Department positions are so critical in that 
regard.
    I think I am speaking for the vast majority of the full 
committee both sides of the aisle. This is something we see as 
a major need and just want to get your reaction to this. I know 
that you are constrained with budgets, but this is about your 
budget in a rare instance that Congress offered more money and 
it is not getting used for some of these things, so if you 
could just address that. I know you are brand new.
    Ambassador Sales. Certainly. Well, thank you for the 
question, Congressman. It is a very important question. You are 
right. ISIS is a franchise. They are branching out all over the 
world, not just in their core heartland of Syria and Iraq. We 
see affiliates in Afghanistan. We see them in the Philippines. 
We see them all across the globe; in every place that ISIS is 
we need to be as well. We need to have a presence to counter 
their false narrative. We need to have a presence to build up 
the capabilities of the countries that are now finding 
themselves with us in the front lines of the fight against 
ISIS, and we are doing that at the CT Bureau. Where ISIS is 
active we are committed to expending the resources that the 
American taxpayers have entrusted us with to counter this 
threat.
    You mentioned Bangladesh in your question and so let me 
just address that country in particular. Just last year in 
2016, we funded crisis response forces in Bangladesh and last 
year they were very successful in carrying out a raid against 
suspected terrorists at a safe house in an apartment building. 
The CT Bureau-funded officials managed to arrest one of the 
terrorists. Several others were killed in a gun battle. The CT-
funded officials found 13 hand grenades, five kilograms of 
explosives, 20 detonators, and additional bomb making 
equipment.
    So the Bangladeshis are safer because of the work that our 
Bureau did, and ultimately, the American people are safer 
because of the work that this Bureau did in helping take down 
that terrorist cell.
    Mr. Keating. All right. I think, Mr. Chairman, we might 
have time given the conflicts that people had today to have a 
second round of questions. So I will yield back and maybe we 
will entertain a second round. Thank you.
    Mr. Cook. Thank you. We are joined by Congresswoman Torres 
and I hope she has some questions for us, and turn it over to 
you.
    Mrs. Torres. Thank you so much, Mr. Chairman.
    And good afternoon, I think it is afternoon, Ambassador 
Sales. I would really like to bring it back to our 
communities--this conversation. I represent San Bernardino 
County. I have lost constituents in that attack that took place 
2 years ago. It will be 2 years in December. As a former 911 
dispatcher, I understand very well how key it is for our first 
responders, our police departments, to have a very close 
working relationship with our communities.
    What is the role of community policing in the Bureau, in 
the Bureau's law enforcement assistant program?
    Ambassador Sales. Well, I couldn't agree more with the 
premise of your question, Congresswoman. We need at that 
Counterterrorism Bureau and at the State Department generally 
to engage all levels of government--not just foreign ministers 
and other cabinet secretaries, but also law enforcement 
officials, community activists, civil society organizations, 
municipal authorities, the sort of people who are on the front 
lines of the struggle against ISIS and al-Qaeda, and I think we 
have been successful at doing that.
    Recently, we launched an initiative known as the Strong 
Cities Network which is designed to accomplish exactly this 
vision that we are talking about where we partner with local 
governments, municipal governments, including law enforcement 
authorities, to better protect their communities and the nation 
as a whole.
    Mrs. Torres. Right. A concern that I have is that I don't 
think that our cops in the street are getting a lot of 
information or proper training on how to identify and how to 
deal. There are some grants that are unattainable for small 
municipalities and I think that we need to focus more in the 
homeland in ensuring that our first responders have that 
information and have data and are able to work together, you 
know, with our alphabet soup at the Federal level.
    One thing that I am very proud of is that prior to--6 
months before that incident happened--I was able to actually 
bring together Homeland Security, the FBI, ATF at a gathering 
with our local police departments and sheriffs. So the first 
time that they met was not when this incident happened. They 
had previously met, they had exchanged business cards, phone 
numbers, and therefore I think that that call when that 
incident happened to the FBI office, it wasn't a cold call. You 
know, they had a contact there.
    And my concern is, I just don't think that we are doing 
enough to share information and to properly train our cops in 
the street on how to deal with counterterrorism issues.
    Ambassador Sales. Well, thank you for that concern, 
Congresswoman. I can tell you that I am encouraged to hear 
about the institution-building that you helped facilitate in 
your district. That is the very sort of thing that we at the CT 
Bureau are trying to do on the international stage. You know, 
here at home we take a backseat to domestic entities like DHS 
and FBI who have the lead in building those relationships among 
domestic law enforcement players and municipal authorities, but 
we have the exact same vision when it comes to community 
engagement on the international stage working with exactly the 
same sorts of entities.
    Mrs. Torres. Thank you so much. I yield back.
    Mr. Cook. Congressman Keating, you had another question?
    Mr. Keating. Well, another region--and it is really hard 
because it is becoming so widespread to pick out entities. But 
another area of concern I have had too in terms of foreign 
fighter travel and radicalization is in the Balkans too, and it 
is becoming an increasing concern there. Could you just share, 
you know, your views on how things are going, what we could do 
to improve that specific area? And it is one of those areas I 
think where there is a difference on how the U.S. is perceived.
    And I guess as a secondary question, it is really important 
if we want cooperation as to how our country is viewed by the 
people, not just their leaders, themselves. So what is being 
done on that secondary level, and more specifically what is 
your view on what is going on with the Balkans?
    Ambassador Sales. So Congressman, the Balkans are a very 
important focus and priority area for the CT Bureau. The 
Balkans have the geographic fortuity of sort of lying right in 
the pathway of some of the migration routes into Iraq and 
Syria. And just as troublingly, they are right in the migration 
routes for people who having gained battlefield experience, are 
returning home to Europe perhaps to carry out more attacks like 
we saw in the Paris attacks, in the Brussels attacks.
    We are very active with government authorities in the 
Balkans. The CT Bureau has funded a number of law enforcement 
training initiatives and we have worked with the Justice 
Department funding resident legal advisors. Those efforts are 
paying, I think, very real dividends. Since we made the Balkans 
a priority, I believe 131 people have been convicted of crimes 
related to the movement of foreign terrorist fighters and my 
understanding is there is about 33 more who are currently under 
indictment and going through the criminal process right now--
all of them in Kosovo.
    So the criminal law is a very powerful tool for deterring 
terrorist activity including terrorist travel and we are doing 
our utmost to use that tool in the Balkans.
    Mr. Keating. Just on the secondary part of that, the way 
the U.S. is perceived in some of these areas is a concern--
areas where I think we were much more--viewed much more in a 
supportive way that is not quite the case now for a number of 
reasons.
    And I guess if you could comment too, one of Russia's 
objectives, have you seen any of their efforts, part of their 
engagement in elections there as they did in France as they are 
trying to do in Germany and as they are doing throughout the 
area as well as the propaganda that they have so successfully 
engineered to try and split our coalition apart; is that 
creating a problem too?
    Ambassador Sales. Well, Congressman, I think our 
Transatlantic Alliance is strong and durable and it is built on 
shared history and even more importantly, shared values. NATO 
of course is the bedrock of our security regime, security 
posture, and it is the bedrock of the post-war international 
system. I think it is unshakeable and I think you are seeing 
not just the United States, but our European allies redouble 
their commitments to NATO. Not just to deal with traditional 
adversaries, but also to focus on new threats that we face like 
counterterrorism.
    And as you know, NATO has recently announced the 
appointment of a counterterrorism coordinator and the 
development of new counterterrorism capabilities. I find that 
very encouraging that NATO is adapting in the same way that the 
global threat environment is adapting.
    Mr. Keating. They were quite anxious to, you know, to get 
involved in that area.
    Just a quick question, finally is--the committee has had 
hearings before on the role of women engaging in counter 
terrorist activities for a number of reasons, number one they 
are the center point of the families that are involved and they 
can spot radicalization perhaps sooner than other members. And 
when we put resources in the hands of many of the women they go 
more directly to the hands of helping children and helping 
education and things that really buffer us from 
radicalization--is that going to be a priority with you?
    Ambassador Sales. Yes, it will, Congressman. I say that, I 
answer that question as the father of two young girls so I have 
some skin in this game, as it were, absolutely. Women are often 
front-line targets of terrorists. You think of the atrocities 
committed against girls by Boko Haram and countless other 
examples that readily come to mind. So women and girls are 
important assets, important assets in the struggle against 
terrorism. Not just potential targets for terrorism, not just 
potential victims of terrorist depredations. So I think it is 
important to engage all levels of society, all members of 
society in this mutual fight.
    Mr. Keating. Great. I yield back, Mr. Chairman.
    Mr. Cook. Thank you. Congresswoman Torres, do you have 
anymore? You do?
    First of all, I want to thank you very, very much. But to 
the committee, I know we had--oh, excuse me. I noticed we have 
one more member that snuck in here very quietly and I want to 
give the opportunity for Congressman Zeldin to ask him some 
questions.
    Mr. Zeldin. Well, thank you, Mr. Chairman, for hosting this 
hearing. And to the Ambassador, good luck--I look forward to 
working with you. I think it is great that you are starting to 
reach out individually to different members to build 
relationships and I think that is great to hear all of our 
different concerns. You have an important job ahead of you and 
I wish you the best for all my constituents' safety and 
security for this country's safety and security.
    I have had something interesting happen to me a couple of 
times over the course of the last month and a half, right 
before the August recess. I was at a dinner off-site with some 
members of a foreign affairs committee of a Parliament in the 
Middle East and we asked them about battling this 
radicalization that exists in their countries. And one person 
at the table said something that would be very politically 
incorrect to say here in the United States, and when that 
person said it everyone at the table agreed. And the person 
said we need to, in their country, they said we need to take 
them out of the mosques. It gave me a lot to think about.
    Coming back from August recess, I just had an ambassador in 
my office from another country from the Middle East and I 
shared that reflection and that moment that happened and I 
asked him and his staff what he thought about it and he said it 
was true. I would be really interested to hear what your 
perspective is. I know this is a tough question. It is a really 
important issue and it is one that we have in many respects 
struggled with here because we want to protect America's 
national security and I think we in many respects we are always 
trying to say and do the right thing.
    Fascinating perspective that I got from two different 
countries in the Middle East, both Muslims who were sharing 
this perspective, both saying that we should take them out of 
the mosques. What is your thought of that?
    Ambassador Sales. Well, I think, Congressman, you have 
raised a very important issue which is how do we address the 
threat not just of violence, but of the radicalism that 
ultimately culminates in violence? And at the CT Bureau we have 
partnered with a number of important partners and allies around 
the world to address this very issue and to engage in a 
systematic counter radicalization campaign that can offer 
opportunities to young people to divert them away from a path 
toward radicalization, to offer off-ramps such that people who 
might have been inclined to embrace violence see alternatives 
to that course, to more fully integrate all members of society 
into the economic opportunities that can help dissuade them 
from pursuing violence.
    But it is not just enough for us to address the risk of 
violence. That is merely the tip of the iceberg. What we are 
engaged in is a fundamental contest of ideas and there is an 
ideological component to this struggle as well in much the same 
way that there was an ideological component to the Cold War. We 
have to engage our adversaries at the level of ideas and 
demonstrate why their false claims are indeed false. And in so 
doing, it is important for us to partner with authentic voices 
of Islam around the world who likewise reject the siren song of 
radicalism and violence.
    Mr. Zeldin. Here in the United States and the international 
community, we view places of worship and schools and hospitals 
as protected sites that are respected, that are off limits--
that are sacred. And it seems like it is pretty obvious, I 
guess, at this point that some of what we hold dear and sacred 
institutions to us in the United States might not be getting 
used in the same way that we aspire to for our own children and 
others here in the United States.
    So with Israel, when they face issues with Hezbollah 
storing missiles inside of protected religious sites or I hear 
this story about taking kids out of mosques, or kids learning 
with textbooks that are teaching them a version of history that 
grooms them to be adversarial to good people, these are all 
challenges that you face. I wish you the best.
    I thank again the chairman for hosting this hearing, and 
please continue to work on building that relationship with each 
and every one of us.
    Ambassador Sales. I certainly will, thank you.
    Mr. Cook. Mr. Ambassador, I want to thank you very much and 
I appreciate the members showing up here and asking their 
questions. You have been on the job 3 weeks. Speaking on behalf 
of the committee, I think we have got to have you back again. 
Obviously today was somewhat of an anomaly, but it is a crazy 
place.
    But I think about funding, about supplemental requests for 
funding. This is a very bipartisan committee, and I think a lot 
of people, both Democrats and Republicans, realize how 
important your job is. So I would ask the staff's indulgence in 
the future to let's do this again, I think, in a number of 
months where we are not jammed with oh, votes, hearings--on 
some very important issues and this and that, because what you 
have to say, I think, is extremely important and we can perhaps 
help you in lending support for a cry for more money for the 
important work you do. So I want to thank you very, very much 
and, at this time, this meeting is adjourned. Thank you.
    [Whereupon, at 3:49 p.m., the subcommittee was adjourned.]

                                     
                                   

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
